        DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                  Office of Inspector General


                                                                                  Washington, D,C. 20201



                                                 AUG 11 2011


TO: 	             Donald M, Berwick, M,D.
                  Administrator
                  Centers for Medicare & Medicaid Services

                                /S/
FROM:             Stuart Wright
                  Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Comparison ofFirst-Quarter 201 J Average Sales Prices
           and Average Manufacturer Prices: Impact on Medicare Reimbursement/or Third
           Quarter 2011, OEI-03-11-00S40


This review was conducted in accordance with the statutory mandate for the Office of Inspector
General (OlG) to identify Medicare Part B prescription drugs with average sales prices (ASP)
that exceed average manufacturer prices (AMP) by at least 5 percent. This review estimated the
financial impact of lowering reimhursement amounts. for drugs that met the 5-percent threshold
to 103 percent of the AMPs, and additionally examined the potential effect of a July 2011
proposed rule that, among other things, specifies the circumstances under which the Centers for
Medicare & Medicaid Services (CMS) will make AMP-based price substitutions.

SUMMARY

Since the implementation of the ASP reimbursement methodology in 2005, OIG has issued
22 reports comparing ASPs with AMPs. This latest comparison examines drugs that exceeded
the 5-percent threshold based on either complete or partial AMP data in the first quarter of 2011.
Of the 339 drug codes with complete AMP data, 15 exceeded the 5-percent threshold. If
reimbursement amounts for all ] 5 codes had been based on 103 percent of the AMPs in the third
quarter of2011, Medicare would have saved an estimated $788,000. Under CMS's proposed
price substitution policy, reimbursement amounts for 7 of the 15 drugs would have been reduced,
saving an estimated $654,000. Of the 105 drug codes with partial AMP data, 20 exceeded the
5-percent threshold. CMS has expressed concern that partial AMP data may not adequately
reflect market trends and therefore proposes that drugs with partial AMP data not be subject to
price reduction. However, we found that pricing comparisons for half of the 20 codes with
partial AMP data seemed to accurately capture market trends; price reductions may be
appropriate in these cases, We could not perform pricing comparisons for an additional 51 drug
codes because none of the associated drug products had corresponding AMP data.
Manufacturers for 9 percent of those drug products had Medicaid drug rebate agreements and
were therefore generally required to submit AMPs,



OEI-03-11-00540           Comparison of First-Quarter 2011 ASPs and AMPs
Page 2 – Donald M. Berwick, M.D.


BACKGROUND

The Social Security Act (the Act) mandates that OIG compare ASPs to AMPs. 1 If OIG finds
that the ASP for a drug exceeds the AMP by a certain percentage (currently 5 percent), the Act
states that the Secretary of Health and Human Services (the Secretary) may disregard the ASP
for the drug when setting reimbursement amounts. 2, 3 The Act further states that “… the
Inspector General shall inform the Secretary (at such times as the Secretary may specify to carry
out this subparagraph) and the Secretary shall, effective as of the next quarter, substitute for the
amount of payment … the lesser of (i) the widely available market price … (if any); or (ii) 103
percent of the average manufacturer price….” 4

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered drugs
include injectable drugs administered by a physician; certain self-administered drugs, such as
oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with durable
medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as Medicare Administrative Contractors (MAC),
to process and pay Medicare Part B claims, including those for prescription drugs. To obtain
reimbursement for covered outpatient prescription drugs, health care providers submit claims to
their MACs using procedure codes. CMS established the Healthcare Common Procedure
Coding System (HCPCS) to provide a standardized coding system for describing the specific
items and services provided in the delivery of health care. In the case of prescription drugs, each
HCPCS code defines the drug name and the amount of the drug represented by the HCPCS code
but does not specify manufacturer or package size information.

Medicare and its beneficiaries spent almost $12 billion for Part B drugs in 2010. 5 Although
Medicare paid for more than 600 outpatient prescription drug HCPCS codes that year, most of
the spending for Part B drugs was concentrated on a relatively small subset of those codes. In
2010, 61 HCPCS codes accounted for 90 percent of the expenditures for Part B drugs, with only
12 of these codes representing the majority of total Part B drug expenditures.




1
  Section 1847A(d)(2)(B) of the Act.
2
  Section 1847A(d)(3)(A) of the Act.
3
  Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the applicable threshold
percentage in 2006 and subsequent years; however, the threshold percentage has been maintained at 5 percent.
4
  Section 1847A(d)(3)(C) of the Act.
5
  Medicare expenditures for Part B drugs in 2010 were calculated using CMS’s Part B Analytics and Reports
(PBAR). The PBAR data for 2010 were 98-percent complete when the data were downloaded in April 2011.

OEI-03-11-00540             Comparison of First-Quarter 2011 ASPs and AMPs
Page 3 – Donald M. Berwick, M.D.


Reimbursement Methodology for Part B Drugs and Biologicals
Medicare Part B pays for most covered drugs using a reimbursement methodology based on
ASPs. 6 As defined by law, an ASP is a manufacturer’s sales of a drug to all purchasers in the
United States in a calendar quarter divided by the total number of units of the drug sold by the
manufacturer in that same quarter. 7 The ASP is net of any price concessions, such as volume
discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
rebate program. 8 Sales that are nominal in amount are exempted from the ASP calculation, as
are sales excluded from the determination of “best price” in Medicaid’s drug rebate program. 9, 10

Manufacturers that participate in the Medicaid drug rebate program must provide CMS with the
ASP and volume of sales for each of their national drug codes (NDC) on a quarterly basis, with
submissions due 30 days after the close of each quarter. 11 An NDC is an 11-digit identifier that
represents a specific manufacturer, product, and package size.

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes rather
than NDCs and more than one NDC may meet the definition of a particular HCPCS code, CMS
has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
information in this crosswalk file to calculate volume-weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted ASPs
Third-quarter 2011 Medicare payments for most covered drug codes were based on
first-quarter 2011 ASP submissions from manufacturers, which were volume-weighted using an
equation that involves the following variables: the ASP for the 11-digit NDC as reported by the
manufacturer, the volume of sales for the NDC as reported by the manufacturer, and the number
of billing units in the NDC as determined by CMS. 12 The amount of the drug contained in an
NDC may differ from the amount of the drug specified by the HCPCS code that providers use to
bill Medicare. Therefore, the number of billing units in an NDC describes the number of
HCPCS code units that are in that NDC. For instance, an NDC may contain 10 milliliters of
Drug A, but the corresponding HCPCS code may be defined as only 5 milliliters of Drug A. In
this case, there are two billing units in the NDC. CMS calculates the number of billing units in
each NDC when developing its crosswalk files.

6
  Several Part B drugs, including certain vaccines and blood products, are not paid for under the ASP methodology.
7
  Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement, and Modernization Act of
2003, P.L. 108-173.
8
  Section 1847A(c)(3) of the Act.
9
  Section 1847A(c)(2) of the Act.
10
   Pursuant to § 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer during
the rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or
governmental entity within the United States, with certain exceptions.
11
   Section 1927(b)(3) of the Act.
12
   The equation that CMS currently uses to calculate volume-weighted ASPs is described in § 1847A(b)(6) of the
Act. It is also provided in Appendix A.


OEI-03-11-00540             Comparison of First-Quarter 2011 ASPs and AMPs
Page 4 – Donald M. Berwick, M.D.


Under the ASP pricing methodology, the Medicare allowance for most Part B drugs is equal to
106 percent of the volume-weighted ASP for the HCPCS code. Medicare beneficiaries are
generally responsible for 20 percent of this amount in the form of coinsurance.

The Medicaid Drug Rebate Program and AMPs
For Federal payment to be available for covered outpatient drugs provided under Medicaid, the
Act mandates that drug manufacturers enter into rebate agreements with the Secretary and pay
quarterly rebates to State Medicaid agencies. 13 Under these rebate agreements and pursuant to
the Act, manufacturers must provide CMS with the AMPs for each of their NDCs. 14 As further
explained in regulation, manufacturers are required to submit AMPs within 30 days after the end
of each quarter. 15

The AMP is generally calculated as a weighted average of prices for all of a manufacturer’s
package sizes of a drug and is reported for the lowest identifiable quantity of the drug (e.g.,
1 milliliter, one tablet, one capsule). Effective October 2010, the Patient Protection and
Affordable Care Act (Affordable Care Act) revised the definition of AMP to be the average price
paid to the manufacturer for the drug in the United States by (1) wholesalers for drugs distributed
to retail community pharmacies and (2) retail community pharmacies that purchase drugs
directly from the manufacturer. 16, 17, 18 Because the AMPs calculated under this new definition
are expected to be based on higher-priced sales, the new AMPs are likely to be higher than the
AMPs calculated before October 2010. 19, 20

Penalties for Failure To Report Timely Drug Pricing Data
Pursuant to the Act, manufacturers that fail to provide ASP and AMP data on a timely basis may
be subject to civil money penalties and/or termination from the drug rebate program. 21, 22
Accordingly, CMS has terminated rebate agreements with a number of manufacturers for failure
to report AMPs and, for the purposes of evaluating potential civil money penalties, has referred
13
   Sections 1927(a)(1) and (b)(1) of the Act.
14
   Section 1927(b)(3) of the Act.
15
   42 CFR § 447.510.
16
   Section 1927(k)(1) of the Act, as amended by § 2503 of the Affordable Care Act, P.L. 111-148.
17
   Pursuant to § 1927(k)(10) of the Act, “retail community pharmacy” means an independent, chain, supermarket, or
mass merchandiser pharmacy that is licensed as a pharmacy by the State and that dispenses medications to the
general public at retail prices. Such term does not include a pharmacy that dispenses prescription medications to
patients primarily through the mail; nursing home, long-term care, or hospital pharmacies; clinics; charitable or
not-for-profit pharmacies; government pharmacies; or pharmacy benefit managers.
18
   Prior to October 2010, the AMP was generally defined by statute to be the average price paid to the manufacturer
for the drug in the United States by wholesalers for drugs distributed to the retail pharmacy class of trade.
19
   As stated by the Department of Health & Human Services in its comments on a 2010 Government Accountability
Office report entitled Medicaid Outpatient Prescription Drugs: Estimated Changes to Federal Upper Limits Using
the Formula under the Patient Protection and Affordable Care Act (GAO-11-141R).
20
   This anticipated increase in AMPs may lessen the likelihood that a drug’s ASP will exceed the 5-percent
threshold, effectively making price substitution criteria more stringent.
21
   Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act.
22
   The Secretary delegated to OIG the responsibility to impose civil money penalties for violations of
§ 1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).

OEI-03-11-00540            Comparison of First-Quarter 2011 ASPs and AMPs
Page 5 – Donald M. Berwick, M.D.


to OIG manufacturers that failed to submit timely ASPs and AMPs. In September 2010, OIG
announced an enforcement initiative under which it would begin imposing civil money penalties
on manufacturers that failed to report timely ASPs and/or AMPs. 23

OIG’s Monitoring of ASPs and AMPs
In accordance with its statutory mandate, OIG has issued 19 quarterly pricing comparisons since
the ASP reimbursement methodology for Part B drugs was implemented in January 2005. In
addition, OIG has completed three annual overviews of ASPs and AMPs, which examined data
across all four quarters of 2007, 2008, and 2009, respectively.

OIG has consistently recommended that CMS develop a price substitution policy and
subsequently lower reimbursement for drugs that exceed the 5-percent threshold as directed by
the Act. Although CMS has yet to make any changes to Part B drug reimbursement as a result of
OIG’s studies, the agency published a proposed rule in July 2011 that, among other things,
specifies the circumstances under which AMP-based price substitutions would occur. 24, 25 CMS
plans to implement its price substitution policy beginning in the first quarter of 2012. 26

CMS’s Proposed Price Substitution Policy
Under CMS’s July 2011 proposed price substitution policy, 103 percent of the AMP would be
substituted for the ASP-based reimbursement amount when OIG identifies a HCPCS code that
meets the 5-percent threshold in two consecutive quarters or three of four quarters. Because
CMS believes that substituted prices based on partial AMP data may not adequately reflect
market trends, the agency would lower reimbursement amounts only when ASP and AMP
comparisons are based on the same set of NDCs (i.e., based on complete AMP data). HCPCS
codes that meet the 5-percent threshold based on partial AMP data would not be eligible for price
substitution.

Price substitutions would take effect in the quarter after OIG shares the results of its most recent
pricing comparison and would remain in effect for one quarter. 27 To prevent CMS’s proposed
policy from inadvertently raising the Medicare reimbursement amount, a price substitution
would not occur when the substituted amount is greater than the ASP-based payment amount
calculated for the quarter in which the price substitution would take effect. 28


23
   OIG, Special Advisory Bulletin: Average Manufacturer Price and Average Sales Price Reporting Requirements,
September 2010. Available online at http://www.oig.hhs.gov.
24
   76 Fed. Reg. 42772, 42947 (July 19, 2011)
25
   CMS previously proposed a price substitution policy to be used for calendar year 2011 but opted not to finalize
that policy based, in part, on impending changes to the definition of AMP (75 Fed. Reg. 73170, 73471).
26
   76 Fed. Reg. 42772, 42947 (July 19, 2011)
27
   After that one quarter, the reimbursement amount would be either 106 percent of the volume-weighted ASP for
the current quarter or, if the HCPCS code continues to meet CMS’s price substitution criteria, 103 percent of the
volume-weighted AMP for the current quarter.
28
   For example, if the AMP-based substitution amount were $5 and the ASP-based reimbursement amount were
$4 for the quarter in which the substitution would take place, CMS would not make the price substitution.

OEI-03-11-00540            Comparison of First-Quarter 2011 ASPs and AMPs
Page 6 – Donald M. Berwick, M.D.


METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the first quarter of 2011,
which were used to establish Part B drug reimbursement for the third quarter of 2011. This file
also includes information that crosswalks NDCs to their corresponding HCPCS codes. Both the
ASP data and the crosswalk data were current as of June 23, 2011. We also obtained AMP data
from CMS for the first quarter of 2011, which were current as of May 12, 2011.

Analyzing ASP Data From the First Quarter of 2011
As mentioned previously, Medicare does not base reimbursement for covered drugs on NDCs;
instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid.

As of July 2011, CMS had established prices for 504 HCPCS codes based on the ASP
reimbursement methodology mandated by the Act. 29 Reimbursement amounts for the
504 HCPCS codes were based on ASP data for 3,082 NDCs.

Analyzing AMP Data From the First Quarter of 2011
To ensure that the broadest range of drug codes is subject to OIG’s pricing comparisons, we
divided HCPCS codes into the following three groups:

           (1) HCPCS codes with complete AMP data—i.e., HCPCS codes with AMP data for
               every NDC that CMS used in its calculation of volume-weighted ASPs;

           (2) HCPCS codes with partial AMP data—i.e., HCPCS codes with AMP data for only
               some of the NDCs that CMS used in its calculation of volume-weighted ASPs; and

           (3) HCPCS codes with no AMP data—i.e., HCPCS codes with no AMP data for any of
               the NDCs that CMS used in its calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity of
the drug contained in that NDC (e.g., 1 milliliter, one tablet, one capsule). In contrast, the ASP
is reported for the entire amount of the drug contained in the NDC (e.g., 50 milliliters,
100 tablets). To ensure that the AMP would be comparable to the ASP, it was necessary to
convert the AMP for each NDC so that it represented the total amount of the drug contained in
that NDC.

To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the AMP
by the total amount of the drug contained in each NDC, as identified by sources such as the CMS
crosswalk file, manufacturer Web sites, Thomson Reuters’ Red Book, and the Food and Drug
29
     Section 1847A(b)(6) of the Act.

OEI-03-11-00540               Comparison of First-Quarter 2011 ASPs and AMPs
Page 7 – Donald M. Berwick, M.D.


Administration’s NDC directory. 30 For certain NDCs, we were unable to identify the amount of
the drug reflected by the ASP or AMP and therefore could not calculate a converted AMP.
Because of these unsuccessful AMP conversions, nine HCPCS codes were removed from our
analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP for
each of the corresponding HCPCS codes, consistent with CMS’s methodology for calculating
volume-weighted ASPs. When calculating the volume-weighted AMP for a HCPCS code with
partial AMP data, we excluded any NDCs without AMPs; however, we did not exclude those
NDCs from the corresponding volume-weighted ASP. This means that the volume-weighted
AMP for a HCPCS code with partial AMP data is based on fewer NDCs than the
volume-weighted ASP for that same code. Appendix B provides a more detailed description of
the methods we used to both convert AMPs and calculate volume-weighted AMPs. Table 1
provides the final number of HCPCS codes and NDCs included in our analysis after we removed
NDCs with either no AMP data or unsuccessful AMP conversions.

Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                            Number of        Number of
 Availability of AMP Data for HCPCS Codes
                                                                         HCPCS Codes            NDCs

 Complete AMP Data                                                                339             1,230

 Partial AMP Data                                                                 105             1,045

 No AMP Data                                                                        51             220

Source: OIG analysis of first-quarter 2011 ASP and AMP data, 2011.


Comparing First-Quarter 2011 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Complete AMP Data
For each of the 339 HCPCS codes with complete AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing unit information. According to our review, one of the
HCPCS codes that exceeded the threshold based on complete AMP data was associated with
questionable billing units. Because volume-weighted ASPs and AMPs are calculated using this
billing unit information, we could not be certain that the results for this code were correct.
Therefore, we excluded this HCPCS code from our findings.




30
     We did not calculate converted AMPs for NDCs in the third group because those NDCs had no AMP data.

OEI-03-11-00540               Comparison of First-Quarter 2011 ASPs and AMPs
Page 8 – Donald M. Berwick, M.D.


For each of the remaining HCPCS codes that exceeded the 5-percent threshold, we estimated the
monetary impact of lowering reimbursement to 103 percent of the AMP. 31 First, we calculated
103 percent of the volume-weighted AMP and subtracted this amount from the third-quarter
2011 reimbursement amount for the HCPCS code. To estimate the financial effect for the third
quarter of 2011, we then multiplied the difference by one-fourth of the number of services that
were allowed by Medicare for each HCPCS code in 2010, as reported in the PBAR. 32, 33

To determine which HCPCS codes would have been subject to CMS’s proposed price
substitution policy, we identified codes with complete AMP data that met the 5-percent threshold
in two consecutive or three of four quarters. We then totaled the estimated third-quarter 2011
savings for that subset of codes.

Comparing First-Quarter 2011 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Partial AMP data
For each of the 105 HCPCS codes with partial AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing units. According to our review, two of the HCPCS
codes that exceeded the threshold based on partial AMP data were associated with questionable
billing units. Because volume-weighted ASPs and AMPs are calculated using this billing unit
information, we could not be certain that the results for these codes were correct. Therefore, we
excluded these HCPCS codes from our findings.

For each of the remaining HCPCS codes that exceeded the 5-percent threshold based on partial
AMP data, we determined whether missing AMPs unduly influenced the results of our pricing
comparison. As mentioned previously, the volume-weighted AMP for a HCPCS code with
partial AMP data is based on fewer NDCs than the volume-weighted ASP for that same code.
Therefore, there may be a disparity between the volume-weighted ASP and AMP that would not
exist if AMP data were available for the full set of NDCs. In other words, the volume-weighted
ASP for the HCPCS code could exceed the volume-weighted AMP by at least 5 percent only
because AMPs for certain NDCs were not represented.

CMS has expressed concern that partial AMP data may not adequately reflect market trends. 34
Therefore, to identify HCPCS codes with partial AMP data that exceeded the 5-percent threshold
only because AMP data were missing, we reanalyzed pricing data after accounting for the

31
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that exceed the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of the
AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.
32
   The PBAR data for 2010 were 98-percent complete when the data were downloaded in April 2011.
33
   This estimate assumes that the number of services that were allowed by Medicare in 2010 remained consistent
from one quarter to the next and that there were no significant changes in utilization between 2010 and 2011.
34
   76 Fed. Reg. 42772, 42830 (July 19, 2011)

OEI-03-11-00540             Comparison of First-Quarter 2011 ASPs and AMPs
Page 9 – Donald M. Berwick, M.D.


missing values. Specifically, we replaced each missing AMP with its corresponding ASP and
recalculated the volume-weighted AMPs using those imputed prices. 35 We then compared those
new volume-weighted AMPs to the volume-weighted ASPs originally calculated by CMS.

If a HCPCS code no longer exceeded the 5-percent threshold, we concluded that the missing
AMPs were likely responsible for the HCPCS code initially exceeding the threshold, as opposed
to an actual disparity between ASPs and AMPs in the marketplace.

If a HCPCS code continued to exceed the 5-percent threshold, we concluded that missing AMPs
had little impact on the results of our pricing comparison. These HCPCS codes likely exceeded
the threshold as a result of actual pricing differences between ASPs and AMPs. Because price
substitutions for these HCPCS codes may be warranted, we estimated the monetary impact of
lowering reimbursement to 103 percent of the new volume-weighted AMPs. We also identified
HCPCS codes with partial AMP data that met the threshold in two consecutive or three of four
quarters and totaled the estimated third-quarter 2011 savings for that subset of codes.

Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we verify
the underlying methodology used by manufacturers to calculate ASPs and AMPs. Furthermore,
we did not verify the accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days after
the close of the quarter. Our analyses were performed on ASP and AMP data compiled by CMS
soon after that deadline. We did not determine whether manufacturers provided additional or
revised pricing data to CMS at a later date.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Of the 339 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
15 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
As mandated by the Act, OIG compared ASPs to AMPs to identify instances in which the ASP
for a particular drug exceeded the AMP by a threshold of 5 percent. In the first quarter of 2011,
15 of the 339 HCPCS codes with complete AMP data (4 percent) exceeded this 5-percent
threshold. Table 2 describes the extent to which ASPs exceeded AMPs for the 15 HCPCS codes.
For three of the codes, the volume-weighted ASP exceeded the volume-weighted AMP by more

35
  Although an NDC’s ASP is not usually the same as its AMP, it is generally within about 5 percent of the AMP at
the median. Therefore, we believe that ASP acts as a reasonable proxy for AMP, ensuring that the NDC is
represented in both the volume-weighted ASP and the volume-weighted AMP for the HCPCS code.

OEI-03-11-00540            Comparison of First-Quarter 2011 ASPs and AMPs
Page 10 – Donald M. Berwick, M.D.


than 70 percent. A list of all 15 HCPCS codes, including their descriptions and HCPCS dosage
amounts, is presented in Appendix C.

                       Table 2: Extent to Which ASPs Exceeded AMPs for
                           15 HCPCS Codes With Complete AMP Data
                              Percentage                           Number of Codes

                              5.00–9.99%                                            6
                              10.00–19.99%                                          5
                              20.00–29.99%                                          0
                              30.00–39.99%                                          1
                              40.00–49.99%                                          0
                              50.00–59.99%                                          0
                              60.00–69.99%                                          0
                              70.00–79.99%                                          1
                              80.00–89.99%                                          0
                              90.00–99.99%                                          1
                              100% and above                                        1
                                 Total                                             15
                             Source: OIG analysis of first-quarter 2011 ASP and AMP data, 2011.


Pursuant to section 1847A(d)(3) of the Act, the Secretary may disregard the ASP for a drug that
exceeds the 5-percent threshold and shall substitute the payment amount with the lesser of either
the widely available market price or 103 percent of the AMP. If reimbursement amounts for all
15 codes with complete AMP data had been based on 103 percent of the AMPs during the third
quarter of 2011, Medicare expenditures would have been reduced by an estimated $788,000 in
that quarter alone. 36 One of the fifteen HCPCS codes accounted for over 70 percent of the
$788,000. If the reimbursement amount for code J9214 had been based on 103 percent of the
AMP during the third quarter of 2011, we estimate that Medicare expenditures would have been
reduced by $569,000.

If CMS’s proposed price substitution policy had been in effect, reimbursement amounts for
almost half of the HCPCS codes (7 of 15) would have been reduced. These seven HCPCS codes
had complete AMP data and met the 5-percent threshold in either two consecutive quarters or
three of four quarters (see Table 3). If reimbursement amounts for the seven codes had been
based on 103 percent of the AMPs during the third quarter of 2011, Medicare expenditures
would have been reduced by an estimated $654,000.




36
  All savings estimates in this report assume that the number of services that were allowed by Medicare in 2010
remained consistent from one quarter to the next and that there were no significant changes in utilization between
2010 and 2011.

OEI-03-11-00540             Comparison of First-Quarter 2011 ASPs and AMPs
Page 11 – Donald M. Berwick, M.D.


 Table 3: Seven HCPCS Codes With Complete AMP Data in the First Quarter of 2011
        That Would Have Met CMS’s Proposed Criteria for Price Substitution
                                              Previous Comparisons of ASPs and AMPs
                                            First          Fourth           Third          Second
                   HCPCS
                                          Quarter         Quarter         Quarter          Quarter
                   Code
                                            2011             2010           2010             2010

                   J9214                  X               X                X               X
                   J9060                  X               X                X
                   J0287                  X               X
                   J1364                  X               X
                   J1650                  X               X
                   J1955                  X               X
                   J9370                  X               X
                  In all quarters, codes exceeded the 5-percent threshold based on complete AMP data.
                  Source: OIG analysis of ASP and AMP data from the second quarter of 2010 through
                  the first quarter of 2011.


Of the 105 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for 20 Exceeded
the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 105 HCPCS
codes for which only partial AMP data were available. ASPs for 20 of these 105 HCPCS codes
(19 percent) exceeded the AMPs by at least 5 percent in the first quarter of 2011. A list of the
20 HCPCS codes, including their descriptions and HCPCS dosage amounts, is presented in
Appendix D.

For half of the HCPCS codes, missing AMPs likely had little influence on the outcome of the
pricing comparisons. Ten of the twenty HCPCS codes with partial AMP data continued to
exceed the threshold when we accounted for missing AMPs, suggesting that the pricing
comparisons for these codes were accurately capturing underlying market trends even though
AMP data were not available for the full set of NDCs. Because missing AMPs likely had little
influence on the pricing comparison results for these 10 HCPCS codes, price substitutions may
be legitimately warranted in these cases. If reimbursement amounts for the 10 codes had been
based on 103 percent of the AMPs, we estimate that Medicare expenditures would have been
reduced by $651,000 during the third quarter of 2011. Table 4 describes the extent to which
ASPs exceeded AMPs for the 10 HCPCS codes.

For the remaining 10 HCPCS codes, ASPs no longer exceeded the AMPs in the first quarter of
2011, indicating that these codes initially exceeded the threshold because of missing AMP data
rather than a genuine pricing disparity between the ASPs and AMPs.




OEI-03-11-00540            Comparison of First-Quarter 2011 ASPs and AMPs
Page 12 – Donald M. Berwick, M.D.


                        Table 4: Extent to Which ASPs Exceeded AMPs for
                             10 HCPCS Codes With Partial AMP Data
                                  Percentage                            Number of Codes

                                  5.00–9.99%                                             3
                                  10.00–19.99%                                           5
                                  20.00–29.99%                                           0
                                  30.00–39.99%                                           1
                                  40.00–49.99%                                           0
                                  50.00–59.99%                                           0
                                  60.00–69.99%                                           0
                                  70.00–79.99%                                           1
                                  80.00–89.99%                                           0
                                  90.00–99.99%                                           0
                                  100% and above                                         0
                                     Total                                              10
                                Source: OIG analysis of first-quarter 2011 ASP and AMP data, 2011.


Of the 10 HCPCS codes on which missing AMPs likely had little influence, 7 met the 5-percent
threshold in either 2 consecutive or 3 of 4 quarters. Although CMS’s proposed price substitution
policy would not apply to HCPCS codes with partial AMP data, ASPs for these seven codes
repeatedly met or exceeded the AMPs by at least 5 percent. If reimbursement amounts for the
seven codes had been substituted with 103 percent of the AMPs, Medicare expenditures would
have been reduced by an estimated $350,000 during the third quarter of 2011. Table 5 presents a
list of the seven HCPCS codes and the quarters during which they previously exceeded the
5-percent threshold.

   Table 5: Seven HCPCS Codes With Partial AMP Data in the First Quarter of 2011
   That Met the 5-Percent Threshold in Two Consecutive or Three of Four Quarters
                                               Previous Comparisons of ASPs and AMPs
                                           First           Fourth           Third            Second
                   HCPCS
                                         Quarter          Quarter         Quarter            Quarter
                   Code
                                           2011              2010           2010               2010

                   J1020                  X               X                X*
                   J9045                  X               X*                                 X
                   Q0165                  X               X                                  X
                   J9190                  X                                X                 X*
                   J7509                  X               X
                   Q0164                  X               X
                   Q0179                  X               X
                  *These codes previously exceeded the 5-percent threshold during the specified quarters based
                  on complete AMP data. For all other quarters, codes exceeded the 5-percent threshold based
                  on partial AMP data.
                  Source: OIG analysis of ASP and AMP data from the second quarter of 2010 through
                  the first quarter of 2011.


OEI-03-11-00540              Comparison of First-Quarter 2011 ASPs and AMPs
Page 13 – Donald M. Berwick, M.D.


Pricing Comparisons Could Not Be Performed on 51 Drug Codes Because No AMP Data
Were Available
For 51 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP data
for any of the 220 NDCs that CMS used when calculating drug reimbursement amounts for these
codes. In 2010, Medicare allowances for these 51 codes totaled $322 million. 37

Manufacturers for 9 percent of the NDCs without AMP data (20 of 220) participated in the
Medicaid drug rebate program as of the first quarter of 2011 and were therefore generally
required to submit AMP data for their covered outpatient drugs. 38, 39, 40

Manufacturers for the remaining 200 of 220 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

This is OIG’s 23rd report comparing ASPs and AMPs, and it examines HCPCS codes with AMP
data for every NDC that CMS used to establish reimbursement amounts, as well as HCPCS
codes with only partial AMP data. To monitor Medicare reimbursement amounts based on ASPs
and consistent with its statutory mandate, OIG compared ASPs and AMPs to identify instances
in which the ASP for a particular drug exceeded the AMP by at least 5 percent.

We identified 35 HCPCS codes that exceeded the threshold for price adjustment in the first
quarter of 2011. Of these, 15 had complete AMP data (i.e., AMP data for every drug product
that CMS used to establish reimbursement amounts). If CMS’s proposed price substitution
policy had been in effect, reimbursement amounts for 7 of the 15 HCPCS codes would have been
lowered to 103 percent of the AMP, thereby saving Medicare and its beneficiaries $654,000 in
that quarter alone. The remaining 20 of 30 HCPCS codes also exceeded the 5-percent threshold
in the first quarter of 2011 but did not have AMP data for every drug product that CMS used
when calculating reimbursement. Although CMS’s proposed price substitution policy would not
apply to codes with partial AMP data, price reductions may be legitimately warranted for half of
the 20 codes because missing AMPs likely had little influence on the pricing comparison results.
We could not compare ASPs and AMPs for 51 HCPCS codes because AMP data were not
submitted for any of the NDCs that CMS used to calculate reimbursement. Manufacturers for
9 percent of these NDCs had Medicaid drug rebate agreements and were therefore generally


37
   Of the 51 HCPCS codes with no associated AMP data, 1 was not listed in the 2010 PBAR file. As a result, this
code was not included in the total Medicare allowances for the year.
38
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted CMS’s
Participating Drug Companies, accessed at http://www.cms.gov on July 5, 2011.
39
   Although manufacturers with rebate agreements are required to submit AMP data for their covered outpatient
drugs, there may be valid reasons why an AMP was not provided for a specific NDC in a given quarter. For
example, a manufacturer may not have been required to submit an AMP if the drug product had been terminated and
there was no drug utilization during the quarter.
40
   These 20 NDCs were crosswalked to 14 HCPCS codes.

OEI-03-11-00540           Comparison of First-Quarter 2011 ASPs and AMPs
Page 14 – Donald M. Berwick, M.D.


required to submit AMPs. OIG will continue to work with CMS to evaluate and pursue
appropriate actions against those manufacturers that fail to submit required data.

Although we do not make recommendations in this report, some of OIG’s previous pricing
comparisons have contained recommendations, which we continue to support. 41 In response to
OIG’s most recent report with recommendations, CMS questioned whether the payoff associated
with price substitution justifies the resources that OIG devotes to quarterly pricing comparisons,
suggesting that OIG limit its efforts to a single annual report. However, until CMS complies
with its statutory responsibility to lower reimbursement amounts for eligible drugs, OIG will
continue to meet its statutory mandate by issuing quarterly pricing comparisons along with
annual overviews that recommend price substitutions as warranted.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-03-11-00540 in all correspondence.




41
  For example, OIG, Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of
2007, OEI-03-08-00450, December 2008; OIG, Comparison of Average Sales Prices and Average Manufacturer
Prices: An Overview of 2008, OEI-03-09-00350, February 2010; and OIG, Comparison of Average Sales Prices
and Average Manufacturer Prices: An Overview of 2009, OEI-03-10-00380, April 2011. These reports are
available online at https://www.oig.hhs.gov.

OEI-03-11-00540          Comparison of First-Quarter 2011 ASPs and AMPs
Page 15 – Donald M. Berwick, M.D.


APPENDIX A

The Equation Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices on or After April 1, 2008


A volume-weighted average sales price (ASP) is calculated for the dosage amount associated with
the Healthcare Common Procedure Coding System (HCPCS) code. In the following equation, the
“number of billing units” represents the number of HCPCS code doses that are contained in a
national drug code (NDC).



       Volume-Weighted ASP            Sum of (ASP for NDC * Number of NDCs Sold)
        for Dosage Amount  =
          of HCPCS Code        Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




OEI-03-11-00540       Comparison of First-Quarter 2011 ASPs and AMPs
Page 16 – Donald M. Berwick, M.D.


APPENDIX B

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the First Quarter of 2011

Healthcare Common Procedure Coding System codes with complete average manufacturer price
data. Of the 504 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 347 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 347 HCPCS codes represented
1,297 NDCs. For 10 NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. These 10 NDCs were
crosswalked to eight HCPCS codes. We did not include these eight HCPCS codes (67 NDCs) in
our final analysis.

Using the converted AMPs for the remaining 1,230 NDCs, we calculated a volume-weighted
AMP for each of the remaining 339 HCPCS codes consistent with CMS’s methodology for
calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 106 HCPCS codes with AMP data for only
some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
106 HCPCS codes represented a total of 1,565 NDCs. AMP data were either missing or
unavailable for 514 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs. 42

We calculated converted AMPs for each of the remaining 1,051 NDCs. For 6 of the
1,051 NDCs, we could not identify the amount of the drug reflected by the ASP and therefore
could not calculate a converted AMP. We removed these six NDCs from our analysis. 43 As a
result, one HCPCS code no longer had any NDCs with AMP data. Therefore, this HCPCS code
was removed from our analysis.

Using the converted AMPs for the remaining 1,045 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 105 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.




42
   Although AMP data for these 514 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
43
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding HCPCS
codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our analysis of
HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic AMP
conversions, but also the corresponding HCPCS codes.

OEI-03-11-00540           Comparison of First-Quarter 2011 ASPs and AMPs
Page 17 – Donald M. Berwick, M.D.


HCPCS codes with no AMP data. For 51 HCPCS codes, there were no AMP data for any of the
NDCs that CMS used in its calculation of volume-weighted ASPs. These 51 HCPCS codes
represented 220 NDCs.




OEI-03-11-00540      Comparison of First-Quarter 2011 ASPs and AMPs
Page 18 – Donald M. Berwick, M.D.


APPENDIX C

Fifteen Drug Codes With Complete Average Manufacturer Price Data That Exceeded the
5-Percent Threshold in the First Quarter of 2011


          Drug
          Code                                                     Short Description         Drug Code Dosage
          J0130                                                   Abciximab injection                         10 mg

          J0287                                 Amphotericin b lipid complex injection                        10 mg

          J0720                                     Chloramphenicol sodium injection                            1g

          J1205                                       Chlorothiazide sodium injection                     500 mg

          J1364                                   Erythromycin lactobionate injection                     500 mg

          J1570                                          Ganciclovir sodium injection                     500 mg

          J1580                                       Garamycin gentamicin injection                          80 mg

          J1650                                          Enoxaparin sodium injection                          10 mg

          J1955                                                Levocarnitine injection                          1g

          J2545                            Pentamidine isethionate inhalation solution                    300 mg

          J2916                             Sodium ferric gluconate complex injection                     12.5 mg

          J9060                                                     Cisplatin injection                       10 mg

          J9100                                              Cytarabine HCl injection                     100 mg

          J9214                                            Interferon alfa-2b injection             1 million units

          J9370                                            Vincristine sulfate injection                      1 mg

         mg = milligram, g = gram
         Source: Office of Inspector General analysis of first-quarter 2011 average sales price and average
         manufacturer price data, 2011.




OEI-03-11-00540            Comparison of First-Quarter 2011 ASPs and AMPs
Page 19 – Donald M. Berwick, M.D.


APPENDIX D

Twenty Drug Codes With Partial Average Manufacturer Price Data That Exceeded the
5-Percent Threshold in the First Quarter of 2011


          Drug
          Code                                                    Short Description          Drug Code Dosage
          90586                                      Bcg vaccine, for intravesical use                     1 each

          J0171                                       Adrenalin epinephrine injection                      0.1 mg

          J0290                                                    Ampicillin injection                   500 mg

          J1020                                          Methylprednisolone injection                      20 mg

          J1162                                           Digoxin immune fab (ovine)                      per vial

          J1190                                            Dexrazoxane HCl injection                      250 mg

          J1644                                             Heparin sodium injection                   1000 units

          J2370                                          Phenylephrine HCl injection                        1 mL

          J2700                                             Oxacillin sodium injection                    250 mg

          J7509                                              Methylprednisolone, oral                       4 mg

          J9031                                                     Bcg (intravesical)                     1 each

          J9045                                                  Carboplatin injection                     50 mg

          J9190                                                 Fluorouracil injection                    500 mg

          J9206                                                   Irinotecan injection                     20 mg

          J9390                                          Vinorelbine tartrate injection                    10 mg

          Q0163                                       Diphenhydramine HCl injection                        50 mg

          Q0164                                       Prochlorperazine maleate, oral                        5 mg

          Q0165                                       Prochlorperazine maleate, oral                       10 mg

          Q0179                                                Ondansetron HCl, oral                        8 mg

          Q9966                 Low osmolar contrast material, 200-299 mg/ml iodine                         1 mL

         mg = milligram, mL = milliliter
         Source: Office of Inspector General analysis of first-quarter 2011 average sales price and average manufacturer price
         data, 2011.




OEI-03-11-00540            Comparison of First-Quarter 2011 ASPs and AMPs
